<html>
<title> - GOVERNMENT 2.0, PART I: FEDERAL AGENCY USE OF WEB 2.0 TECHNOLOGIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
   GOVERNMENT 2.0, PART I: FEDERAL AGENCY USE OF WEB 2.0 TECHNOLOGIES

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2010

                               __________

                           Serial No. 111-113

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
64-925                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d1a052a091f191e020f061a4409050744">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
HENRY CUELLAR, Texas
JUDY CHU, California
                     Darryl Piggee, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 22, 2010....................................     1
Statement of:
    Ferriero, David S., Archivist of the United States, U.S. 
      National Archives and Records Administration; Dr. David L. 
      McClure, Associate Administrator, Office of Citizen 
      Services and Innovative Technologies, U.S. General Services 
      Administration; Gregory C. Wilshusen, Director, Information 
      Security Issues, U.S. General Accountability Office; and 
      John M. Simpson, stem cell project director, Consumer 
      Watchdog...................................................    10
        Ferriero, David S........................................    10
        McClure, Dr. David L.....................................    18
        Simpson, John M..........................................    61
        Wilshusen, Gregory C.....................................    42
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     4
    Ferriero, David S., Archivist of the United States, U.S. 
      National Archives and Records Administration, prepared 
      statement of...............................................    13
    McClure, Dr. David L., Associate Administrator, Office of 
      Citizen Services and Innovative Technologies, U.S. General 
      Services Administration, prepared statement of.............    20
    Simpson, John M., stem cell project director, Consumer 
      Watchdog, prepared statement of............................    63
    Wilshusen, Gregory C., Director, Information Security Issues, 
      U.S. General Accountability Office, prepared statement of..    44


   GOVERNMENT 2.0, PART I: FEDERAL AGENCY USE OF WEB 2.0 TECHNOLOGIES

                              ----------                              


                        THURSDAY, JULY 22, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:25 p.m., in 
room 2247, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Maloney, Norton, Davis, 
Driehaus, Cuellar, Chu, McHenry, Westmoreland, Mica, and 
Chaffetz.
    Staff present: Darryl Piggee, staff director/counsel; 
Yvette Cravins, counsel; Frank Davis and Anthony Clark, 
professional staff members; Charisma Williams, staff assistant; 
Ron Stroman, staff director--full committee; and Michael 
McCarthy, deputy staff director--full committee.
    Mr. Clay. Good afternoon. The Information Policy, Census, 
and National Archives Subcommittee of the Oversight and 
Government Reform Committee will now come to order.
    Without objection, the chair and ranking minority member 
will have 5 minutes to make opening statements not to exceed 3 
minutes by any other Member who seeks recognition. And without 
objection, Members and witnesses may have 5 legislative days to 
submit a written statement or extraneous materials for the 
record.
    Welcome to today's hearing: A review of agency use under 
the Federal Records Act of Web 2.0 technologies.
    As a result of today's hearing, we will have an 
understanding of what is meant by Web 2.0 in the Federal 
Government, recognize the Federal records management 
implications of these technologies, and appreciate what areas 
of Web 2.0 may merit further examination by the committee.
    To that end, we have invited three government witnesses who 
are experts in these fields, including the Archivist of the 
United States. It is good to see you again Archivist Ferriero.
    Web 2.0 technologies make possible interactive 
collaboration and enhanced information sharing, allowing large 
groups of users to participate in content creation.
    Federal agencies have embraced Web 2.0 for both external 
and internal applications to promote transparency, 
collaboration and participation.
    Agencies must continue to manage content created via Web 
2.0 applications under the Federal Records Act and in 
compliance with the National Archives and Records 
Administration guidance, which is why I have invited the 
Archivist to testify today.
    The GSA is leading executive branch efforts to identify and 
develop Web 2.0 platforms for agencies to use. Therefore, we 
will hear today from the Associate Administrator of GSA's 
Office of Citizen Services and Innovative Technologies.
    Several months ago, I requested the GAO review the 
management and protection of information collected and 
maintained by commercial providers of Federal social media 
services. While they have only just begun that engagement, I 
have invited GAO's Director of Information Security Issues here 
today.
    It is my hope that during today's hearing, Part I in a 
series of hearings on Web 2.0, we can remain focused on the 
subject at hand and not become distracted by issues outside of 
the scope of this hearing and even outside of the jurisdiction 
of this subcommittee.
    There have been media reports that this hearing will be 
used for a showdown with the administration over issues 
unrelated to the Federal records implications of Web 2.0, 
indeed unrelated to Web 2.0 completely. If true, this is 
troubling. A congressional oversight hearing should be where 
important issues are thoroughly examined and not a showdown.
    Also, rule XV of the Committee on Oversight and Government 
Reform expressly requires that all questions put to witnesses 
before the committee shall be relevant to the subject matter 
before the committee for consideration. I am going to make sure 
that we use this committee's valuable time and resources 
appropriately.
    This Congress has been very active in oversight of Federal 
as well as Presidential records. I am an original cosponsor of 
the first bill passed by the House in this session, H.R. 35, 
the Presidential Records Act Amendments of 2009. Not every 
member of the subcommittee voted for this important bill, and I 
continue to hope that the Senate will move forward and pass 
this legislation.
    If there is specific credible evidence that any Federal 
agency is not properly managing Federal records, we will 
examine that, and I am always open to suggestions from all 
members of this committee for relevant topics for future 
hearings. But it is more important to talk about the subject at 
hand, an issue that affects all agencies in broad and diverse 
ways, than to spend valuable subcommittee time making political 
points on a very different issue.
    In any case, this hearing is about Web 2.0, and 
particularly the Federal records implications of these 
technologies, and I hope that everyone understands that and 
will confine their questions to the subject matter of this 
committee.
    As a final point, I want to clear up some confusion about 
today's hearing. There is continuing controversy about an old 
story; that is, whether an administration official used his 
personal e-mail account in violation of the Presidential 
Records Act. First, the official, Mr. McLaughlin, is employed 
by the White House Office of Science and Technology Policy. 
While this is an entity in the Executive Office of the 
President, that office is not subject to the Presidential 
Records Act. The Office of Science and Technology Policy is 
subject to the Federal Records Act.
    In addition, his incidental use of a personal e-mail 
account for government business is not in and of itself a 
violation of the Federal Records Act, which governs his 
records. The individual simply needs to make sure that the 
record gets into the proper recordkeeping system. And that is 
what happened. In fact, the issue that the White House 
examined, dealt with, and closed was not about any records 
statute, it was about incidental contact with the official's 
former employer, prohibited not by law but by an ethics pledge. 
The White House dealt with the matter, and it is now closed. 
And now we shall move forward to the subject of today's 
hearing.
    I now yield to my colleague, the subcommittee ranking 
minority member, Mr. McHenry of North Carolina. And you are 
recognized for 5 minutes.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T4925.001
    
    Dr. McHenry. Mr. Chairman, before I make an opening 
statement I would like to record some of my concerns about this 
hearing. There was a hearing--this hearing was originally 
scheduled for June 24th. And among the witnesses that were 
invited to the June 24th hearing was Ms. Beth Simone Noveck, 
the Deputy Chief Technology Officer for the White House Office 
of Science and Technology Policy. So the fact that the chairman 
is saying that it is not, that we don't have oversight over 
that, it is perplexing to me that he had this very witness on 
the previous hearing canceled.
    So in advance of the originally scheduled hearing Ranking 
Member Issa spoke publicly of his intention to question Ms. 
Noveck about the use of personal e-mail to conduct official 
business in the Office of Science and Technology.
    Ms. Noveck chairs an office with Andrew McLaughlin, a 
former Google lobbyist the chairman references in his opening 
statement, turned administration official who used his personal 
e-mail account to communicate with more than 25 Google 
employees, including influential lobbyists and lawyers.
    Now, Mr. McLaughlin also used his G-mail address, his Web 
mail address, to communicate with senior members of the Obama 
administration. This use of personal e-mail violates the 
President's ethics pledge and Federal law. And I do think those 
two together, separately and together, are very important 
things: Federal ethics pledge from the President as well as 
Federal law. And yet the White House refuses to answer 
questions from Republican members of this committee about how 
the problem is fixed.
    Interestingly enough, this witness was dropped before 
today's hearing in anticipation of this line of questioning. 
Within days of Ranking Member Issa's public statements about 
his intentions to question Ms. Noveck about this incident the 
hearing was canceled. Today we are holding this hearing without 
a White House witness. Without being able to ask questions to a 
White House witness, our Members are being deprived of answers 
about a very disturbing trend in the administration.
    On top of Mr. McLaughlin's use of his personal e-mail to 
circumvent the Presidential Records Act and even the Federal 
Records Act, the New York Times reported on June 24th that 
White House staffers regularly meet with lobbyists at a Caribou 
Coffee across the street from 1600 Pennsylvania Avenue. Because 
this discussion--because the discussions are not taking place 
at the White House they are not subject to disclosure on the 
visitors log that the White House releases as part of its 
pledge to be, ``the most transparent Presidential 
administration in history.''
    It is important for this committee's purposes that we are 
provided the opportunity to question relevant witnesses and to 
conduct proper oversight on our concerns related to the 
extraordinary lengths that White House staffers are going to 
avoid having their communications captured by the Presidential 
Records Act and the Federal Records Act. Not having a White 
House witness present to testify at this hearing undermines the 
purposes of this hearing and prevents us from doing our job of 
conducting oversight of this issue.
    So under House rule XI, clause 2(K) sets forth hearing 
procedures to be followed by the House committees and 
subcommittees. Clause 2(K)(s) of House rule XI states that, 
``the Chair shall receive and the subcommittee shall dispose of 
a request to subpoena additional witnesses.''
    Pursuant to that rule, Mr. Chairman, I move the committee 
authorize and issue a subpoena to compel the testimony of Ms. 
Beth Simone Noveck or another White House official with the 
Office of Science and Technology Policy qualified to testify on 
her behalf.
    Mr. Chairman, there is a motion.
    Mr. Clay. We will address the motion at another time.
    Dr. McHenry. Mr. Chairman, I demand a recorded vote, ask 
for a recorded vote on this motion.
    Mr. Clay. We will.
    Dr. McHenry. At this time.
    Mr. Clay. At this time? Well, we will recess. The committee 
stands in recess.
    [Recess.]
    Mr. Clay. The committee will reconvene. And I will let the 
ranking member restate the motion.
    Dr. McHenry. Sure. House rule XI, clause 2(K) sets forth 
hearing procedures to be followed by the House committees and 
subcommittees. Clause 2(K)(6) of House rule XI states, ``the 
Chair shall receive and the committee shall dispose of a 
request by subpoena to subpoena additional witnesses.''
    Pursuant to that rule I move that the committee authorize 
and issue a subpoena to compel the testimony of Ms. Beth Simone 
Noveck or another White House official with Office of Science 
and Technology Policy qualified to testify on her behalf.
    Mr. Clay. The members of the committee have heard the 
motion.
    Dr. McHenry. And with that, I would ask for a recorded 
vote.
    Mr. Clay. And a recorded vote has been requested. Will the 
Clerk call the roll.
    The Clerk. Mr. Clay.
    Mr. Clay. No.
    The Clerk. Mr. Clay votes no.
    Mrs. Maloney.
    Mrs. Maloney. No.
    The Clerk. Mrs. Maloney votes no.
    Ms. Norton.
    Ms. Norton. No.
    The Clerk. Ms. Norton votes no.
    Mr. Davis.
    Mr. Davis. No.
    The Clerk. Mr. Davis votes no.
    Mr. Driehaus.
    Mr. Driehaus. No.
    The Clerk. Mr. Driehaus votes no.
    Mr. Cuellar.
    [No response.]
    The Clerk. Ms. Chu.
    [No response.]
    The Clerk. Mr. McHenry.
    Dr. McHenry. Yes.
    The Clerk. Mr. McHenry votes aye.
    Mr. Westmoreland.
    Mr. Westmoreland. Aye.
    The Clerk. Mr. Westmoreland votes aye.
    Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Mica votes aye.
    Mr. Chaffetz.
    Mr. Chaffetz. Aye.
    The Clerk. Mr. Chaffetz votes aye.
    Mr. Clay. The clerk will report.
    The Clerk. Mr. Chairman, the noes are five, the ayes are 
four. The noes have it.
    Mr. Clay. The motion is defeated.
    Dr. McHenry. Mr. Chairman, with that, because this is 
obviously a hearing that doesn't get to the essence of this 
question, and seeing as it is apparent that the majority in the 
Congress is very intent on protecting the White House from 
these questions, I move that we adjourn.
    Mr. Clay. The motion to adjourn is before the committee. 
The Clerk will call the roll.
    The Clerk. Mr. Clay.
    Mr. Clay. No.
    The Clerk. Mr. Clay votes no.
    Mrs. Maloney.
    Mrs. Maloney. No.
    The Clerk. Mrs. Maloney votes no.
    Ms. Norton.
    Ms. Norton. No.
    The Clerk. Ms. Norton votes no.
    Mr. Davis.
    Mr. Davis. No.
    The Clerk. Mr. Davis votes no.
    Mr. Driehaus.
    Mr. Driehaus. No.
    The Clerk. Mr. Driehaus votes no.
    Mr. Cuellar.
    [No response.]
    The Clerk. Ms. Chu.
    [No response.]
    The Clerk. Mr. McHenry.
    Dr. McHenry. Yes.
    The Clerk. Mr. McHenry votes aye.
    Mr. Westmoreland.
    Mr. Westmoreland. Aye.
    The Clerk. Mr. Westmoreland votes aye.
    Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Mica votes aye.
    Mr. Chaffetz.
    Mr. Chaffetz. Aye.
    The Clerk. Mr. Chaffetz votes aye.
    Mr. Clay, the noes are five, the ayes are four.
    Mr. Clay. By a vote of 4 to 5 the motion is defeated.
    Dr. McHenry. Well, Mr. Chairman, after stating the obvious, 
that you have the majority and you want to proceed with this 
hearing, I just ask why it is that you chose to not invite Ms. 
Noveck when she was previously on the last hearing. It was 
exactly the same. The only difference was Issa's statement he 
was going to ask about----
    Ms. Norton. Mr. Chairman, this matter has been settled by a 
vote. The Member continues to support a matter that has been 
settled by a vote, majority vote of the committee. He is out of 
order.
    Dr. McHenry. Mr. Chairman. Question to the chair.
    Mr. Clay. The gentlewoman is correct and we will proceed 
with the hearing.
    Dr. McHenry. So the gentleman will not ask the question?
    Mr. Clay. I will not answer the question.
    Dr. McHenry. Then I demand my opening statement as the 
ranking member. I made a motion, which was my initial 
statement, that was my motion, and I demand my opening 
statement.
    Mr. Clay. The gentleman is recognized for 5 minutes.
    Dr. McHenry. Thank you. This could be a very open hearing 
about the important part of the new technology that the Nation 
is experiencing and certainly this White House and the 
government is experiencing as well. With the original hearing 
that we were going to have on the 24th, it was clear that we 
were going to have that discussion. And with new technology, 
the White House is not immune to this. The Bush White House 
used the same outlines of rules that the Clinton administration 
developed on retaining e-mail. He was entitled to a government 
e-mail address, he was entitled to have a political or outside 
e-mail address, the limitations on that. And it is apparent 
with all sorts of news that we are reading about this White 
House is that they are using technology that was not available 
during the Clinton era, was not even available when the Bush 
administration set forward their rules and regs on who is 
entitled to e-mail access that is not official and governmental 
and therefore subject to recordkeeping.
    So I think it is important that we have this discussion 
with the White House. It is apparent that the majority in this 
Congress does not want to ask even a White House witness to be 
a part of it. In fact, they are trying to protect one White 
House witness from even answering questions about their 
recordkeeping, even though we have seen in press reports that 
they are clearly doing things that are not in keeping with 
Presidential records and Federal records laws before you even 
mention the President's ethics pledge.
    And it is a shame that it had to come to this, that we have 
to have a vote on it, but it is the intent of the chairman and 
the subcommittee members to do this. And so I beg your apology, 
the crowd here, the witnesses, our panel here, but 
unfortunately this could have been a much better hearing with a 
much better exchange rather than having to vote on subpoenaing 
a White House witness because the chairman didn't invite that 
person to this hearing. And that is before you even talk about 
a violation of the rules that the majority displayed when you 
talk about the discussion of what is permissible.
    I was in a hearing with the Archivist in a similar panel a 
couple weeks ago and the chairman refused to let me ask a 
question that he didn't deem in keeping with the subject matter 
of the day. Well, the subject matter of the day is deemed by a 
majority memo. And under House rules you have to get a memo 3 
days in advance. We got our memo at 5 p.m. yesterday. So if my 
questions aren't in keeping with what you deem correct I am 
going to ask you to have a vote to disallow my questioning if I 
can't determine and my staff can't determine and the minority 
staff can't determine what questions to ask when you won't even 
tell us what the hearing is about. And this is very 
frustrating. And so that is the reason why we had to have these 
votes today. Because we can have a substantive hearing about 
important issues when we are talking about Presidential 
records.
    Every President does the same thing. They want to make sure 
that they have two lines of communication, one that is subject 
to the history books and the other that is not. And every 
President has done this. Every President. It is not a Democrat 
thing, it is not a Republican thing. And we have to make sure 
that we use the power of oversight to make sure they adhere to 
those rules and regulations. And we have outside groups that 
are very interested in this as well, some that are not 
traditionally conservative, some that are liberal and some that 
are all across the board.
    So I think it is important that we have that oversight 
authority to make sure that we are getting an administration 
adhering to their ethics pledge and the laws of this land.
    Mr. Chaffetz, would you like the remainder of my time? And 
with that, I would be happy to yield back the balance of my 
time.
    Mr. Clay. The gentleman yields back. Are there any other 
opening statements? If not, for the record, this is a hearing 
on the Federal Records Act and not the Presidential Records 
Act. With that, if there are no additional statements, the 
subcommittee will now receive testimony from the witnesses 
before us today.
    I would like to introduce our panel. Our first witness will 
be the Archivist of the United States, David Ferriero. Mr. 
Ferriero has led the National Archives Census Confirmation last 
November. He previously served as the Andrew W. Mellon Director 
of the New York Public Libraries, the largest system in the 
United States. Mr. Ferriero earned Bachelor's and Master's 
Degrees in English literature from Northeastern University in 
Boston and a Master's Degree from Simmons College of Library 
Information Science also in Boston.
    After the Archivist we will hear from Dr. David McClure, 
the Associate Administrator of the Office of Citizen Services 
and Innovative Technologies in the GSA. Dr. McClure received 
his Bachelor's and Master's Degrees from the University of 
Texas and a Doctorate in Public Policy from the University of 
North Texas.
    Our third witness will be Mr. Gregory Wilshusen, Director 
of Information Security Issues at the Government Accountability 
Office. He is a certified public accountant, certified internal 
auditor, and certified information systems auditor. Mr. 
Wilshusen holds a BS Degree from the University of Missouri and 
an MS Degree from George Washington University.
    The final witness will be Mr. John Simpson. He is a Stem 
Cell Project Director for Consumer Watchdog, a nonprofit, 
nonpartisan organization that advocates for taxpayers and 
consumer interests. Mr. Simpson holds a Bachelor's Degree from 
the State University of New York in Binghamton and a Master's 
Degree from the University of Southern California.
    I thank all of our witnesses for appearing today and look 
forward to their testimony. It is the policy of this committee 
to swear in all witnesses. I would like to ask you to stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated. Let the record 
reflect the witnesses answered in the affirmative. We will 
begin under the 5-minute rule with Mr. Ferriero. Please, you 
may begin.

   STATEMENTS OF DAVID S. FERRIERO, ARCHIVIST OF THE UNITED 
STATES, U.S. NATIONAL ARCHIVES AND RECORDS ADMINISTRATION; DR. 
 DAVID L. McCLURE, ASSOCIATE ADMINISTRATOR, OFFICE OF CITIZEN 
  SERVICES AND INNOVATIVE TECHNOLOGIES, U.S. GENERAL SERVICES 
  ADMINISTRATION; GREGORY C. WILSHUSEN, DIRECTOR, INFORMATION 
 SECURITY ISSUES, U.S. GENERAL ACCOUNTABILITY OFFICE; AND JOHN 
   M. SIMPSON, STEM CELL PROJECT DIRECTOR, CONSUMER WATCHDOG

                 STATEMENT OF DAVID S. FERRIERO

    Mr. Ferriero. Chairman Clay, Ranking Member McHenry, and 
members of the subcommittee, thanks for the opportunity to 
testify today. This hearing is exploring the use of Web 2.0 
technologies by Federal agencies. I am here to state that the 
content created within these applications in many cases should 
be treated as official Federal records.
    In my written testimony, I describe the guidance NARA has 
issued and is continuing to issue to agencies about how to 
identify and manage content created using Web 2.0 technologies. 
Additionally, I have outlined the Web 2.0 initiatives that we 
have undertaken at NARA to promote transparency, collaboration, 
and participation and the steps we are taking to manage our own 
records from these Web 2.0 projects.
    NARA has long recognized the content created by Federal 
agencies and placed on their Web sites is in many cases a 
Federal record and must be managed as such. Over the past 
several years NARA has issued an updated guidance for Federal 
agencies to manage Web records. The underlying principle in our 
guidance is that record content produced or published by 
agencies on the Web must continue to be managed in compliance 
with NARA's records management guidance. The fact that agencies 
have increased their involvement of the Web 2.0 platforms does 
nothing to change that fundamental principle.
    However, NARA does realize that Web 2.0 platforms raise 
additional records management questions. As a means of 
exploring these potential records management questions, we 
undertook a detailed evaluation involving dozens of discussions 
with agencies of the evolving nature of both the Web and 
Federal agencies' use of emerging Web 2.0 capabilities. NARA's 
subsequent Web 2.0 guidance and activities build on the 
research foundation established in this evaluation.
    The interactive nature of Web 2.0 platforms present a 
number of new factors for agencies to consider. For instance, 
agencies need to determine if the interactive nature of the 
content creation, such as comments left on an agency blog, need 
to be documented as part of the record. They also need to 
determine if the frequent update of the content requires 
additional strategies to capture the records. These 
determinations will impact how agencies properly manage and 
schedule their records of their Web 2.0 interactions.
    NARA will soon issue a bulletin that will provide 
additional guidance and information to agencies about Web 2.0 
and social media platforms and how agency use of them may 
impact records management procedures.
    We are also conducting a study of Federal agencies that are 
actively using Web 2.0 technologies in order to gain a greater 
understanding of what records are being created and their 
potential value, both to agencies and NARA. Both the bulletin 
and study will be completed and made available this fall.
    As the subcommittee knows, the core of NARA's mission is 
public access to information. Web 2.0 tools are allowing us to 
fulfill that mission in exciting new ways that are already 
improving external and internal communication and 
collaboration. NARA is currently using new media tools to 
support more than 60 live projects. Some examples are in my 
written testimony, including my own blog, where I regularly 
report on a variety of issues.
    Finally, as an agency that not only archives Federal 
records but creates them, I would like to touch on what we are 
doing to manage our own records created with social media 
tools.
    ``Rules of Behavior for Using Web 2.0 and Social Media Web 
Sites and Responsibilities for Content Management,'' is the 
title of our internal guidance. Under this guidance staff 
responsible for a Web 2.0 project are directed to assess the 
record value at the proposal stage to determine if the social 
media activities will create or maintain Federal records. 
NARA's records management staff assist in making this 
determination.
    To support this guidance, the manager of a Web 2.0 proposal 
is directed to answer two records questions: Will the proposed 
social media be used to create or maintain data or information 
meeting the statutory definition of a Federal record, and if 
yes, how will the records, drafts and other products from this 
project be captured and managed during their entire retention 
period?
    The records portion of the guidance explains the records 
created and maintained in social media may be covered in the 
NARA record schedule and/or the general record schedule and 
should be managed in accordance with approved dispositions. The 
biggest challenge in establishing this guidance or determining 
the boundary of social media records, for example, is the 
record the whole site or just a portion? And determining the 
best ways to capture the record content in a format that 
maintains the content context and structure and is sustainable 
over the long term.
    What we are learning in regard to managing our NARA Web 2.0 
records will be shared as best practices on NARA's opening 
government Web site. Web 2.0 offers opportunities unimaginable 
a decade ago, and I am personally excited that NARA is taking 
advantage of its capabilities to increase awareness and provide 
better access to our holdings while at the same time working 
with agencies to ensure that new types of historic records are 
preserved for future generations.
    Thanks again for the opportunity to testify and I look 
forward to answering your questions.
    [The prepared statement of Mr. Ferriero follows:]

    [GRAPHIC] [TIFF OMITTED] T4925.002
    
    [GRAPHIC] [TIFF OMITTED] T4925.003
    
    [GRAPHIC] [TIFF OMITTED] T4925.004
    
    [GRAPHIC] [TIFF OMITTED] T4925.005
    
    [GRAPHIC] [TIFF OMITTED] T4925.006
    
    Ms. Norton [presiding]. Thank you very much, Mr. Ferriero.
    Dr. McClure.

                 STATEMENT OF DAVID L. McCLURE

    Dr. McClure. Thank you, Ms. Norton, and welcome to members 
of the subcommittee.
    Ms. Norton. Let me just say that the chairman, real 
chairman, will be back shortly.
    Dr. McClure. Thanks. It is a pleasure to be here to testify 
before you on the use of Web 2.0 tools in the government and 
how GSA is helping to enable this transformation. My written 
statement is full of examples of how social media and Web 2.0 
technologies are being used in the Federal Government. But 
today I just want to make three primary points to the 
subcommittee.
    First, I want to emphasize that the use of Web 2.0 tools is 
essential for responding to shifting citizen expectations of 
government. Web-based social networks play an increasingly 
central role in the lives of citizens. For instance, YouTube 
has become the second largest search engine in the world. Over 
300 billion pieces of content are shared on Facebook each year. 
MySpace, YouTube, Facebook host 250 million visitors, 80 
percent of the U.S. population each month. And these statistics 
I think just provide a glimpse into how Web 2.0 is altering how 
citizens both produce and consume information.
    Increasingly citizens are expected to find the information 
they want and need through Web-based social networks. They use 
more and more of them every day. They expect government not 
only to deliver services through multiple channels, but to 
engage with them on how these services are working and can be 
improved.
    Connecting citizens and government is not new to GSA, and 
our Administrator Martha Johnson has placed open government at 
the center of our mission agenda. In response, we have 
delivered an apps dot-gov storefront to help connect agencies 
with social media tools meeting Federal friendly terms of 
service. We are creating a challenge dot-gov Web site, a 
governmentwide challenge and contest platform to open up 
innovation and problem solving. And through our Web manager 
university we have supported and trained over 18,000 agency 
customers in areas like plain language and user center design 
for Web content.
    So GSA is delivering significant Web 2.0 efficiencies by 
establishing tools for governmentwide use, sharing agency 
policies and building communities that extend across the 
government.
    My second point is that Web 2.0 is a mission enabler for 
government. It is easy to think of Web 2.0 as a novelty or 
something that occurs along the real business of government. 
However, government's use of social media is extraordinary and 
it is very diverse. Its use should be aligned directly with the 
efficiency, effectiveness, and quality of core government 
functions and programs. I've highlighted several examples in my 
written statement for you, such as the Library of Congress, the 
U.S. Geological Survey, the State Department, and TSA's 
IdeaFactory, just to give you an example of many of the 
innovative uses of Web 2.0 technologies.
    These efforts show that Web 2.0 isn't fundamentally about 
technology itself, but it is how technology is enabling people 
to come together in new ways and achieve dramatic results.
    Point No. 3, successful engagement with citizens must be 
built on a foundation of transparent government. The open 
government directive contains specific direction for making 
government more open to citizens and enabling them to hold us 
accountable. New data releases in areas such as Medicare 
diagnostic procedures and charges, educational system revenues, 
and standardized scoring outcomes, social security adjudication 
processing have virtually unlocked unprecedented transparency 
and accountability for the citizens of this country.
    Using Web 2.0 technologies GSA is supporting two key 
initiatives; data dot-gov, a central portal for citizens to 
discover, download and access over 270,000 government data 
sets, and U.S. spending dot-gov, which let's the public 
visualize how their tax dollars are being spent. We have also 
redesigned the government's main citizen Internet portal, 
USA.gov and gobierno.gov with mobile applications to expand the 
real-time service delivery of information services to the 
public.
    In closing, I hope we have shed some light in the statement 
on Federal agency adoption of Web 2.0 and GSA's work in 
encouraging it. Thank you, Mr. Chairman, and I look forward to 
answering questions.
    [The prepared statement of Mr. McClure follows:]

    [GRAPHIC] [TIFF OMITTED] T4925.007
    
    [GRAPHIC] [TIFF OMITTED] T4925.008
    
    [GRAPHIC] [TIFF OMITTED] T4925.009
    
    [GRAPHIC] [TIFF OMITTED] T4925.010
    
    [GRAPHIC] [TIFF OMITTED] T4925.011
    
    [GRAPHIC] [TIFF OMITTED] T4925.012
    
    [GRAPHIC] [TIFF OMITTED] T4925.013
    
    [GRAPHIC] [TIFF OMITTED] T4925.014
    
    [GRAPHIC] [TIFF OMITTED] T4925.015
    
    [GRAPHIC] [TIFF OMITTED] T4925.016
    
    [GRAPHIC] [TIFF OMITTED] T4925.017
    
    [GRAPHIC] [TIFF OMITTED] T4925.018
    
    [GRAPHIC] [TIFF OMITTED] T4925.019
    
    [GRAPHIC] [TIFF OMITTED] T4925.020
    
    [GRAPHIC] [TIFF OMITTED] T4925.021
    
    [GRAPHIC] [TIFF OMITTED] T4925.022
    
    [GRAPHIC] [TIFF OMITTED] T4925.023
    
    [GRAPHIC] [TIFF OMITTED] T4925.024
    
    [GRAPHIC] [TIFF OMITTED] T4925.025
    
    [GRAPHIC] [TIFF OMITTED] T4925.026
    
    [GRAPHIC] [TIFF OMITTED] T4925.027
    
    [GRAPHIC] [TIFF OMITTED] T4925.028
    
    Ms. Norton. Thank you, Dr. McClure.
    Mr. Wilshusen.

               STATEMENT OF GREGORY C. WILSHUSEN

    Mr. Wilshusen. Thank you very much. Thank you for the 
opportunity to testify at today's hearing on Federal use of Web 
2.0 technologies. These technologies refer to a second 
generation of the World Wide Web as enabling a platform for 
Web-based communities of interest, collaboration and 
interactive services. Internet-based services using these 
technologies include blogs, social networking sites, video Web 
sites and wikis. These tools provide flexible, sophisticated 
capabilities for interactions among individuals. Among the 
general public these services have become quite popular and 
Federal agencies are increasingly using them as well.
    At Chairman Clay's request, we are initiating a review of 
agency procedures for managing and protecting information 
associated with the Federal use of social media services such 
as Facebook, Twitter, and YouTube. Our work is just beginning 
in this area, and we plan to work closely with the subcommittee 
staff as our review progresses. Today, however, I will discuss 
the ways Federal agencies are using Web 2.0 technologies and 
the challenges associated with their use.
    But first, if I may, I would just like to recognize the 
contributions of three members of my team who helped prepare 
this statement and will be leading this review. John de 
Ferrari, Marisol Cruz and Nick Marinos sitting behind them.
    Most Federal agencies are using Web 2.0 technologies to 
enhance interactions with the public. We have determined that 
22 of the 24 major Federal agencies have a presence on 
Facebook, Twitter, and YouTube. Federal Web managers use these 
applications to connect with people in new ways.
    For example, the U.S. Agency for International Development 
uses Facebook to inform the public about the developmental and 
humanitarian assistance that it provides to different 
countries. It also posts links to other USA resources, 
including blogs, videos and relevant news articles.
    NASA uses Twitter to notify the public about the status of 
its missions, as well as to respond to questions regarding 
space exploration.
    And the State Department uses YouTube and other video 
technologies in support of its public diplomacy efforts.
    While the use of Web 2.0 technologies can transform how 
Federal agencies engage the public in the governing process, 
agency use of such technologies can also present challenges 
related to privacy, security, and records management. One such 
challenge is determining requirements for preserving Web 2.0 
information as Federal records.
    A key question is whether information exchange through 
these technologies constitutes Federal records pursuant to the 
Federal Records Act. Another challenge is establishing 
mechanisms for preserving this information as Federal records 
once the need to preserve information has been established.
    A third challenge is ensuring that agencies take 
appropriate steps to limit the collection and use of personal 
information through social media. Federal agencies have taken 
steps to identify and start addressing these and other Web 2.0 
technology issues.
    For example, NARA has provided updated guidance on managing 
Web-based records and is conducting a study on the impact of 
more recent Web technologies and plans to release additional 
guidance later this year. GSA has negotiated terms of service 
agreements with several social networking providers that 
addresses concerns agencies have with the terms and conditions 
generally provided by those providers. And OMB has recently 
issued guidance intended to help agencies protect privacy when 
using third-party Web sites and applications.
    In summary, Federal agencies are increasingly using Web 2.0 
technologies to enhance services and interactions with the 
public. However, determining the appropriate use of these 
technologies poses new questions about the ability of agencies 
to protect the privacy and security sensitive information and 
to manage, preserve and make available official government 
records.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Wilshusen follows:]
    [GRAPHIC] [TIFF OMITTED] T4925.029
    
    [GRAPHIC] [TIFF OMITTED] T4925.030
    
    [GRAPHIC] [TIFF OMITTED] T4925.031
    
    [GRAPHIC] [TIFF OMITTED] T4925.032
    
    [GRAPHIC] [TIFF OMITTED] T4925.033
    
    [GRAPHIC] [TIFF OMITTED] T4925.034
    
    [GRAPHIC] [TIFF OMITTED] T4925.035
    
    [GRAPHIC] [TIFF OMITTED] T4925.036
    
    [GRAPHIC] [TIFF OMITTED] T4925.037
    
    [GRAPHIC] [TIFF OMITTED] T4925.038
    
    [GRAPHIC] [TIFF OMITTED] T4925.039
    
    [GRAPHIC] [TIFF OMITTED] T4925.040
    
    [GRAPHIC] [TIFF OMITTED] T4925.041
    
    [GRAPHIC] [TIFF OMITTED] T4925.042
    
    [GRAPHIC] [TIFF OMITTED] T4925.043
    
    [GRAPHIC] [TIFF OMITTED] T4925.044
    
    [GRAPHIC] [TIFF OMITTED] T4925.045
    
    Mr. Clay [presiding]. I thank the witness for his 
testimony.
    Mr. Simpson, you're recognized for 5 minutes.

                  STATEMENT OF JOHN M. SIMPSON

    Mr. Simpson. Thank you, Mr. Chairman. Chairman Clay, 
Ranking Member McHenry, and members of the committee. Thank you 
for this opportunity to orally introduce my written remarks 
into the record. I am John M. Simpson, a consumer advocate with 
Consumer Watchdog, a nonprofit, nonpartisan public interest 
group founded in 1985. I am the director of our Google Privacy 
and Accountability Project.
    Frankly, I wish this were a hearing into Google's recent 
Wi-spying activities where they snooped on home lifeline 
networks around the world. We have called for congressional 
hearings into the scandal, and I respectfully repeat that 
request today. I believe that the House Energy and Commerce 
Committee were the primary jurisdiction, but I think a very 
strong case can be made that your committee have appropriate 
oversight.
    But we are here today to talk about Web 2.0, and that is 
what I am testifying about, Web 2.0 technologies or services 
like Google's, YouTube, Facebook, Twitter, blogs and the like. 
I briefly would like to make three points.
    First, as I saw personally when I took vacation time to 
campaign for Barack Obama in Missouri, Web 2.0 tools are 
powerful indeed. It is no surprise that they have been adopted 
by Federal agencies. They certainly improve government 
transparency, responsiveness and citizen involvement. I think 
they are particularly attractive to young people. All this is 
to the good.
    Second, on the downside, many of these technologies raise 
substantial concerns about and challenges to consumer's 
privacy. Given the appalling track record of Facebook and 
Google in this area, and one only needs to think of Wi-Spy and 
the launch of Google Buzz or Facebook's unilateral revision of 
privacy policies to understand that these companies do not have 
consumer privacy high on their list of priorities.
    Third, and this brings us to the crux of the dilemma where 
the Federal agencies are involved, Federal agency use of Web 
2.0 techniques implies a government endorsement of many of 
these companies. Because this may lull consumers into trusting 
such sites far more than they should, it is even more 
imperative that Congress enact robust on-line privacy laws to 
protect privacy and other rights. And I am delighted to note 
that there's another hearing before another committee right now 
discussing stronger privacy legislation. That is a very good 
thing.
    In conclusion, Web 2.0 techniques offer government agencies 
powerful and valuable tools. They should be used carefully, 
however, without unduly favoring a particular provider, and 
there must be explicit warnings when a consumer leaves an 
official government site to go to one of the third-party sites.
    Most importantly, however, Congress must enact meaningful 
privacy legislation to safeguard consumers as they use these 
on-line services that have become known as Web 2.0.
    I look forward to answering any of your questions. Thank 
you very much.
    [The prepared statement of Mr. Simpson follows:]
    [GRAPHIC] [TIFF OMITTED] T4925.046
    
    [GRAPHIC] [TIFF OMITTED] T4925.047
    
    [GRAPHIC] [TIFF OMITTED] T4925.048
    
    [GRAPHIC] [TIFF OMITTED] T4925.049
    
    [GRAPHIC] [TIFF OMITTED] T4925.050
    
    [GRAPHIC] [TIFF OMITTED] T4925.051
    
    Mr. Clay. I thank the witness and thank all the witnesses 
for their testimony. We are in the middle of a series of votes, 
but we will try to get to two questioners. I will start with 
Ms. Norton of the District of Columbia.
    Ms. Norton. Thank you very much. Mr. Chairman, before I ask 
my question I do want to note a searing hearing I recall in 
preface to a question I am going to ask. It was about 2 years 
ago. It was a full committee hearing on the Bush 
administration's electronic record preservation. It was almost 
a scandalous hearing. The minority defended at the hearing, or 
the hearing of record, the Bush administration's use of non-
Federal e-mail systems such as the Republican National 
Committee's e-mails. No one can forget it, because among the 
most notorious use of these e-mails now lost forever was Karl 
Rove himself.
    My very good friend and the ranking member of the committee 
at that time, Mr. Issa, asked the General Counsel of the 
National Archives if the use of a personal e-mail account was 
inappropriate for official business. That answer was no, that 
the actual use of a personal e-mail for official government 
business was not a violation of the law. The e-mail simply had 
to be placed into the recordkeeping system. That is what would 
satisfy the requirements of law. That is what was never done by 
88 White House officials led by Karl Rove himself.
    In light of that past practice, let me ask Mr. Ferriero, 
what is the current policy on archiving Web sites; are any of 
those permanent?
    Mr. Ferriero. Your question is specifically about Web 
sites?
    Ms. Norton. Yes, Web sites first. E-mails of the kind I 
mentioned.
    Mr. Ferriero. The policy around e-mails have not changed.
    Ms. Norton. So would you state it?
    Mr. Ferriero. On the Federal Records Act or the 
Presidential Records Act. That people are free to use external 
e-mail accounts as long as those e-mails are captured for the 
agencies or the White House's own records management system.
    Ms. Norton. Is that system being followed as far as you 
know?
    Mr. Ferriero. As far as I know.
    Ms. Norton. Now, with 2.0, Web 2.0, aren't there new 
challenges presented to comply with the Records Management Act, 
was not complied with at all in the last administration, now 
you say as far as you know it is being complied with, but now 
we have 2.0. How are you managing to do that?
    Mr. Ferriero. Every new technology presents new challenges 
to the basic definition of what is a record. And the guidance 
that we have already issued and continue to issue as we work 
with the agencies helps them clarify, helps the agencies 
clarify exactly what needs to be captured, how long it has to 
be retained and eventually what comes to the Archives as 
permanent record.
    Ms. Norton. Dr. McClure, let me ask you a question about 
privacy. Karl Rove and the 88 White House officials apparently 
weren't concerned about privacy because they simply took their 
personal e-mails with them, they were never archived.
    Do you have concerns about the privacy of the content of 
government 2.0 sites now that everybody is going to be on these 
sites and e-mails like Karl Rove's e-mails would have to be 
archived?
    Dr. McClure. Well, I think in reference to the Web 2.0 or 
social media tools our expectation that GSA and for any tool 
that we put up for governmentwide use, it adheres to the 
Privacy Act and to privacy impact assessment requirements 
before we will accept the product.
    Ms. Norton. Meaning what?
    Dr. McClure. It has to go through a test by test of data 
collection to understand how privacy information is considered 
personal.
    Ms. Norton. Well, suppose you received Mr. Rove's e-mails. 
How would that go through and be managed if that policy had 
been followed then as it was not?
    Dr. McClure. Well, I think the e-mail area is a little bit 
different because it covers e-mail transfer, the receipt and 
what is sent on official government system versus what is a 
private account that you have with a third-party provider. So 
e-mails----
    Ms. Norton. For the provider it was done right on the White 
House account.
    Dr. McClure. So----
    Ms. Norton. I don't know who the third-party provider is. 
The White House is essentially the account being used.
    Dr. McClure. Right, right. Well, again, government 
employees, both appointees, as well as civil service officials, 
have to still comply with--this is where we get into this 
distinction between ethics rules and the use of technology 
rules. So that is I think what causes these issues to get 
blurred quite a bit.
    Ms. Norton. All right. So you shouldn't use the White House 
system, are you saying, for such e-mails, or are you saying if 
you use them do understand it is our obligation to archive 
them?
    Dr. McClure. Yeah, absolutely, yes.
    Ms. Norton. And you do understand that they were not 
archived at all. Millions upon millions of personal e-mails 
were lost during the Bush administration when, according to 
testimony before this committee, at least 88 White House 
officials used the White House system for personal e-mails. 
Now, if that happened in the Bush White House those would have 
been archived.
    Mr. Clay. The gentlewoman's time has expired.
    Ms. Norton. Those would have to be archived if that 
happened in the Obama White House. I yield back the balance of 
my time.
    Mr. Clay. Gentleman from North Carolina is recognized for 5 
minutes.
    Dr. McHenry. Thank you, Mr. Chairman.
    I think we have this long-term discussion about 
Presidential records. Look, the Bush White House had their 
folks with outside e-mail accounts and apparently this White 
House has the same thing. It's apparently that the high ranking 
political officials in the Clinton White House and the Bush 
White House had political accounts in order to discuss 
political travel. I would raise the question of if Mr. Axelrod 
or if Mr. Emanuel have those very same types of accounts in 
this administration.
    But Dr. Ferriero, the Presidential Records Act applies to 
all documentary material created or received by the President, 
his immediate staff or a unit or individual of the Executive 
Office of the President. The White House Office of Science and 
Technology is part of the Executive Office of the President.
    Mr. Ferriero, why does the Presidential Records Act not 
apply to the Office of Science and Technology?
    Mr. Ferriero. Very good question. All I know is that office 
is covered by the Federal Records Act and not the Presidential 
Records Act. And I'm sure--I have legal counsel behind me. I'm 
sure they can explain the history of that.
    Dr. McHenry. Now, for instance, if someone within that 
department is a part of a Presidential decision, would those e-
mails be subject to the Presidential Records Act?
    Mr. Ferriero. If they are Presidential records, if the 
President's direct staff were involved, then those records 
would be, yes. But, the OSTP's staffers' e-mail would be 
covered by the Federal Records Act.
    Dr. McHenry. Now we are currently working under a 2008--
2008, NARA conducted an evaluation of Federal agencies use of 
the Web 2.0 technologies. We are currently operating under a 
2006 guidance in essence for the Federal Government, is that 
correct?
    Mr. Ferriero. I believe it's 2009.
    Dr. McHenry. OK.
    Mr. Ferriero. And new guidance about to be released this 
fall.
    Dr. McHenry. At the end of this year.
    Mr. Ferriero. Right.
    Dr. McHenry. Mr. Simpson, on January 21, 2000, the 
President signed an Executive order requiring every appointee 
to sign a pledge to refrain from participating, ``in any 
particular matter involving specific matters that is directly 
and substantially related to my former employer or former 
clients, including and regulating contracts. This lobbying ban 
must also be followed by all members of the executive branch.''
    Mr. McLaughlin's communications with his ex-colleagues at 
Google he communicated regularly and often with Google about, 
for instance, net neutrality, China, copyright, policy and 
intellectual property rights, privacy regulation and Internet 
governance.
    Now this was released as a matter of your group's Freedom 
of Information Act about his e-mails in this case, is that 
correct?
    Mr. Simpson. We opposed his nomination from the beginning 
because we thought it was inappropriate for an industry 
lobbyist, specifically a Google lobbyist, to have that 
position. When he got the position, I decided to put in a FOIA 
request to obtain his e-mails both on his White House account 
and on private accounts, and the result of that was the 
documents that you were referring to.
    Dr. McHenry. OK. Now, do you know of any other particular, 
any other particular policy matters directly or substantially 
related to Mr. McLaughlin and his relationship with his former 
employer?
    Mr. Simpson. All I know is what was released in the FOIA, 
as a result of the FOIA request.
    Dr. McHenry. In your written testimony, you raised concerns 
about some Web 2.0 technology providers could have too close a 
relationship with Federal agencies.
    Can you expand on these concerns?
    Mr. Simpson. I do think that Google specifically has 
perhaps too close a relationship with the government. I think 
it has worked very hard to do that, I think Mr. McLaughlin's 
appointment is one of those ties that is inappropriate, but I 
also think that there are other ones. I mean the sort of 
revolving door policy that they have of hiring lobbyists, say 
one of their top people happens to be Pablo Chavez, who used to 
be the counsel to Senator McCain. So this is a sad commentary, 
if you will, on the revolving door in Washington. And I'm 
particularly upset about how Google has been able to insinuate 
itself into that process, and I have opposed, along with my 
colleague from the Center for a Digital Democracy, Mr. 
McLaughlin's appointment from the beginning.
    Mr. Clay. The gentleman's time has expired. For the record, 
and for the committee's information, there are two categories 
in the Executive Office of the President that come under 
different controlling statutes. And in the Executive Office of 
the President, the entity subject to the Federal Records Act 
are the Council on Environmental Quality, Office of Management 
and Budget, Office of National Drug Control Policy, Office of 
Science and Technology Policy, and the Office of the U.S. Trade 
Representative. And that's in accordance with FOIA.
    In the other category of entities that come under the 
Presidential Records Act in the Executive Office of the 
President, the White House Office, the Office of 
Administration, the Office of the Vice President, Council of 
Economic Advisers, National Security Council, Office of Policy 
Development. And under that office is Domestic Policy Council, 
Office of National AIDS Policy, National Economic Council, and 
the President's Foreign Intelligence Advisory Board.
    So that kind of breaks down the categories of which 
statutes apply to which offices. And with that, we will recess 
until the end of these votes. The committee stands in recess.
    [Recess.]
    Mr. Clay. The subcommittee will reconvene. Let me start out 
with Archivist Ferriero.
    In your statement, you point out that NARA will promulgate 
new policies in the form of a bulletin on Web 2.0 and social 
media platforms. This is on top of guidance NARA issued in 2005 
and 2006. It sounds like you need to continually assess the 
implications of new technologies and respond accordingly.
    Does NARA do that proactively in response to agency 
requests? And how is that accomplished?
    Mr. Ferriero. It actually happens in a couple of ways, but 
let me first correct what I said in response to Congressman 
McHenry's question. The latest guidance is September 2006 and 
that covers wiki's logs, Web portals and RSS feeds, a lot of 
the 2.0 technologies that already exist. So the updated 
bulletin that will come up this fall deals with social media 
products that have come out since then.
    In terms of how we work with the agencies on that, one of 
the imperatives that I have brought to the agency is that if we 
are going to be advising other agencies on how to be using 
these tools we need to be using them ourselves. So we, there 
has been an explosion I would say in the last 6 months at the 
Archives in the use of these 2.0 technologies. So that is one 
way. And the work that we've been doing with the agencies in 
terms of this evaluation and assessment is another way that we 
keep on top of what is being used now.
    Mr. Clay. Can you tell us more about NARA's own use of Web 
2.0 to engage researchers and stakeholders and improve internal 
communications?
    Mr. Ferriero. We have been aggressively using tools 
internally and externally to gather reactions, input, feedback, 
on various new ways of doing business. We are, as you know, as 
every agency is dealing with a very severe budget year ahead, 
and we have been using IdeaScale, one of the social media 
tools, internally to gather ideas from the staff about how we 
can do business much more efficiently and effectively and save 
money. So that is one way that we have been doing that.
    We are in the process of redesigning our Web site, and so 
we have been using similar tools to get the same kind of 
feedback from our user community, from the stakeholders about 
how they feel about the redesign.
    Mr. Clay. Can you please explain how the very nature of Web 
2.0 content, like blogs, comments, editable wikis, Twitter 
feeds, Facebook discussions, possibly time sensitive Web links 
pose challenges to agencies unlike any previous type of Federal 
record?
    Mr. Ferriero. They certainly require one to rethink the 
definition of record. Each one of these new technologies gives 
us the opportunity to kind of rethink what is a record, how 
long it needs to be kept, and what part of that technology is 
permanent that we need to be accommodating in perpetuity.
    Mr. Clay. Thank you for your responses.
    Mr. McClure, there have been several recent reports 
regarding GSA's policy on the personal use of social media by 
agency employees. Can you explain GSA's policy and any 
guidelines the agency has provided to employees related to 
their use of social media in their personal lives.
    Dr. McClure. Chairman Clay, the GSA social media policy is 
actually constructed by our CIO office so I probably would have 
to get you a formal answer back from our CIO. The GSA policy I 
do think makes a distinction between using social media tools 
for official government business versus using it on your own 
personal time. So I know that is a distinction in our policy, 
but we can certainly give you some specifics from the CIO 
office.
    Mr. Clay. Would you provide the committee with that 
information?
    Dr. McClure. Absolutely.
    Mr. Clay. Thank you.
    Mr. Wilshusen, are agencies prepared to schedule and manage 
Web 2.0 content as Federal records?
    Mr. Wilshusen. That is one of the issues we intend to look 
at, Mr. Chairman, as part of the review that you requested on 
how agencies manage and protect information that they gather 
through these social media sites and things. So that is 
something we do plan on looking at, and we will be looking at 
the 24 major CFO Act agencies as part of our scope of that 
review.
    Mr. Clay. In your initial review, have you been able to 
identify any agencies that are doing well with 2.0 records 
management?
    Mr. Wilshusen. No, I wouldn't say that we've identified 
because we again are at a very early stage. But we have found 
that there are a number of agencies that are using those 
technologies in order to interact better with the public and 
several agencies that are using what seems to be a very 
effective manner in terms of interacting with the public and 
getting out their message through videos as well as through 
blogs in which they help interact with the individuals.
    Mr. Clay. And what are the Freedom of Information Act 
implications for Web 2.0 content?
    Mr. Wilshusen. Well, one of the key issues associated with 
that is determining whether or not the information that is 
maintained by third-party providers through these technologies 
is actually susceptible to Freedom of Information Act requests. 
And so because--what we have found, looking at the Department 
of Justice guidelines is that it identifies four criteria to 
determine whether or not agency is agency records for the 
purpose of the Freedom of Information Act and those are rather 
strenuous and strict criteria. So agencies might be challenged 
in order to meet each of those as it relates to Freedom of 
Information Act's requests for information collected by those 
third-party providers.
    Mr. Clay. Is the dilemma about separating and determining 
what should fall under FOIA?
    Mr. Wilshusen. Yes, in making sure that the agency has 
adequate control over the information in order for it to be an 
agency record under FOIA.
    Mr. Clay. OK. Dr. Ferriero, what I guess heading toward a 
wrapup of the hearing today, what do you see as the areas this 
subcommittee in its oversight and information policy role 
should continue to examine?
    Mr. Ferriero. I think it's clear in the self-assessment 
that we shared with you not too long ago that the agencies 
themselves have identified, 80 percent of the agencies have 
identified that they are at moderate to high risk around 
electronic records. So we need to be providing more guidance to 
the agencies around these electronic records. And I'm hopeful 
that the new bulletin that we come out with is going to be a 
trigger for us to be more aggressive with those agencies.
    Mr. Clay. I hope so, too. Thank you for your response.
    Dr. McClure, in your written testimony, you give many 
examples of the innovative Web 2.0 applications Federal 
agencies are currently using. Can you please talk about one 
example of an external application and one internal application 
that demonstrate the potential of these technologies?
    Dr. McClure. Well, I think from a--most of these tools that 
are being adopted are actually external rather than internal. 
They are easy, lightweight, agile applications that are 
relatively inexpensive in the market or in many cases they are 
being offered at no cost to Federal agencies. So I think in a 
general sense there is a great list of social media tools in 
the idea management challenge and platform contest space, in 
ranking and rating ideas and problem solving engagements with 
the public that cover both commercial as well as no-cost 
products.
    We actually from our perspective, from an efficiency 
perspective think that a lot of the software that is available 
in the marketplace, it meets a lot of the agency needs in these 
areas. So there is little need for an agency to be building its 
own software, developing its own tools when the market is so 
robust as it is today.
    So almost every example that I can point to in my statement 
is using mostly either no-cost or very lightweight commercial 
applications for interaction, engagement, content and 
challenges, or notifications to the public as is the case with 
the TED system at the U.S. Geological Survey.
    Mr. Clay. Thank you for your response.
    And I have already asked the Archivist this, but I will ask 
the panel a wide question, what do you see as the areas this 
subcommittee in its oversight of NARA and information policy 
should continue to examine?
    We will start with you, Dr. McClure.
    Dr. McClure. Thank you. I think, Chairman Clay, that we 
don't need--we should not lose the perspective of the benefits 
that the government is getting from social media tools. It's 
one of the reasons why in my statement we documented as 
thoroughly as we could the use of this technology across the 
government.
    It is true that there are challenges in the policy area for 
the adoption of social media, and I think we have identified 
many of them in the records management area in today's hearing.
    No. 1 is what constitutes a record? That has to be 
determined by the agency. That is not something that is totally 
defined by any guidance put out by the government.
    No. 2, we have the changing constantly in these Web sites. 
So what is a record? Is it something that changes every 20 
seconds, every minute? That creates huge challenges for 
agencies in terms of volume and the types of information that 
constitute a record.
    The third challenge is the social media tools themselves 
that are being made available to the government are not 
configured to operate in accordance with Federal Records Act 
provisions. These are commercial products that are built for 
everyday use by consumers or organizations outside of 
government.
    So it's no easy task for a lot of these tools to be 
compliant with policy provisions like the Federal Records Act.
    Mr. Clay. Should private industry rework or redesign tools 
specifically for government?
    Dr. McClure. Well, our position at GSA is before we bring a 
tool into the government, it must be compliant, and we 
encourage agencies to follow examples of how other agencies are 
making sure of that. The GSA procurement schedules, for 
example, if it's a for fee product, they have to meet Federal 
guidelines in order to be purchased by any Federal agency.
    And I will tell you last that for any no-cost product that 
we have brought into the Federal Government for governmentwide 
use, we had put it through all the policy and legal compliance 
tests to make sure that we are not violating or not following 
guidance under these laws.
    Mr. Clay. Thank you for your response.
    Mr. Wilshusen, what should we continue to examine as a 
subcommittee?
    Mr. Wilshusen. I would second everything that Dr. McClure 
stated as key challenges and issues to address. But I would 
also add privacy and security challenges associated with the 
use of these technologies because they do collect a lot of 
personal information on these Web sites and through these 
social networking sites that needs to be protected, and to what 
extent Privacy Act applies as well as other security threats 
that are potentially exposing that information to risk are 
issues that should also be addressed, and that is something 
that we will be looking at as part of our review.
    Mr. Clay. It's interesting you bring up security. I just 
completed my information security course required by all 
Members of the House.
    Mr. Wilshusen. Congratulations.
    Mr. Clay. And I passed.
    Mr. Simpson.
    Mr. Simpson. I would completely concur with my colleagues 
on the panel. I would emphasize the problems and challenges 
with privacy and security, and I would add a suggestion. I 
mean, recently you had a look at cloud computing and that is 
very much related to all of this that is tied into Web 2.0. But 
I would urge the committee not necessarily only to look in the 
abstract at these technologies, but to examine very closely the 
companies that are providing these services and look at their 
approaches to the challenges to privacy and to security and to 
whether they in fact live up to what they say they are going to 
do, which is why I think this committee would have complete 
oversight to call somebody like Google in and talk to them 
about their privacy practices and how this horrible thing could 
have happened with Wi-Spy.
    Another example of this which relates to the cloud and 
security goes precisely to the tendency of technology companies 
to overpromise. Google has touted the fact that it sold its 
cloud services to Los Angeles. And the fact of the matter is 
that the deadline was blown. The city of Los Angeles is about 
to have to come up with another $500,000 or so to cover 
licenses that they didn't expect to have to have, because 
Google was unable to meet the security requirements on the 
Government cloud that were required by the Los Angeles Police 
Department.
    That is the kind of issue that I think this committee 
should be exploring, and I think that it's essential, again, 
that you do it, by talking to specific companies.
    Mr. Clay. Thank you for that. And contrary to what it was 
stated earlier, I am continuously open to Members from both 
sides of the aisle on suggestions for future hearings, and I 
will entertain those suggestions when they are brought to me.
    Let me thank all of the witnesses for their indulgence 
today. I know we got off to a bumpy start but because of you 
all, you made this hearing complete, and I thank you.
    This hearing is adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
